HHS/OIG, Audit -"Review of Wilson N. Jones Medical Center Cardiac Rehabilitation Services,"(A-06-03-00041)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Wilson N. Jones Medical Center Cardiac Rehabilitation Services," (A-06-03-00041)
November 19, 2003
Complete
Text of Report is available in PDF format (632 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Wilson N. Jones
Medical Center (Hospital) for outpatient cardiac rehabilitation services. Even though physician supervision is assumed
to be met in an outpatient hospital department, the Hospital did not designate a physician to directly supervise the services
provided by its cardiac rehabilitation program. In addition, contrary to current Medicare requirements, we could not identify
the physician professional services to which the cardiac rehabilitation services were provided incident to. Further,
from our specific claims review of 30 of the 160 Medicare beneficiaries who received outpatient cardiac rehabilitation
services during CY 2001, we determined that the Hospital claimed and received Medicare reimbursement for 13 beneficiaries services,
amounting to $4,656, which may not have met Medicare coverage requirements or which were otherwise unallowable. We attributed
all of these questionable services to weaknesses in the Hospitals internal controls and oversight procedures.